<html>
<title> - OVERSIGHT OF THE ELECTION ASSISTANCE COMMISSION</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]



                                                            
                      OVERSIGHT OF THE ELECTION 
                         ASSISTANCE COMMISSION

=======================================================================

                                HEARING

                               BEFORE THE

                   COMMITTEE ON HOUSE ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               ----------                              

                              MAY 21, 2019

                               ----------                              

      Printed for the use of the Committee on House Administration
      
      
      
      
      
      
      
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
 
 
 
      


                       Available on the Internet:
         https://www.govinfo.gov/committee/house-administration
         
         
         
         
         
         

            OVERSIGHT OF THE ELECTION ASSISTANCE COMMISSION       
            
            
   




 
                       OVERSIGHT OF THE ELECTION 
                         ASSISTANCE COMMISSION

=======================================================================

                                HEARING

                               BEFORE THE

                   COMMITTEE ON HOUSE ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 21, 2019

                               __________

      Printed for the use of the Committee on House Administration
      
      
      
      
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                       Available on the Internet:
         https://www.govinfo.gov/committee/house-administration
         
         
         
         
                           ______
                          

             U.S. GOVERNMENT PUBLISHING OFFICE 
 39-584               WASHINGTON : 2020         
 
 
 
         
         
         
                   COMMITTEE ON HOUSE ADMINISTRATION

                  ZOE LOFGREN, California, Chairperson
JAMIE RASKIN, Maryland               RODNEY DAVIS, Illinois,
SUSAN A. DAVIS, California             Ranking Member
G.K. BUTTERFIELD, North Carolina     MARK WALKER, North Carolina
MARCIA L. FUDGE, Ohio                BARRY LOUDERMILK, Georgia
PETE AGUILAR, California

                            C O N T E N T S

                              ----------                              

                              MAY 21, 2019

                                                                   Page
Oversight of the Election Assistance Commission..................     1

                           OPENING STATEMENTS

Chairperson Zoe Lofgren..........................................     1
    Prepared statement of Chairperson Lofgren....................     4
Hon. Rodney Davis, Ranking Member................................     7
    Prepared statement of Ranking Member Davis...................     9

                               WITNESSES

Joint Statement of Hon. Christy McCormick, Chairwoman; Hon. 
  Benjamin Hovland, Hon. Don Palmer, Hon. Thomas Hicks, Election 
  Assistance Commission..........................................    14
    Prepared statement of Election Assistance Commissioners......    17

                       SUBMISSIONS FOR THE RECORD

Election Assistance Commission, Questions for the Record, 
  responses......................................................   144
Hon. Christy McCormick, Commissioner and Chairwoman, Election 
  Assistance Commission, addendum letter of August 12, 2019, 
  submission.....................................................   215
Election Assistance Commission, Roles and Responsibilities of the 
  Commissioners and Executive Director, submission...............   249
Election Assistance Commission, Organizational Management Policy 
  Statement, submission..........................................   257
Johnson County Election Office, Performance Audit Report No. 
  2016-01, submission............................................   273


            OVERSIGHT OF THE ELECTION ASSISTANCE COMMISSION

                              ----------                              


                         TUESDAY, MAY 21, 2019

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 3:16 p.m., in Room 
1310, Longworth House Office Building, Hon. Zoe Lofgren 
[Chairperson of the Committee] presiding.
    Present: Representatives Lofgren, Raskin, Davis of 
California, Butterfield, Fudge, Davis of Illinois, Walker, and 
Loudermilk.
    Staff Present: Sean Jones, Legislative Clerk; David Tucker, 
Senior Counsel and Parliamentarian; Jamie Fleet, Staff 
Director; Peter Whippy, Communications Director; Elizabeth 
Hira, Counsel--Elections; Stephen Spaulding, Counsel--
Elections; Courtney Parella, Minority Communications Director; 
Jennifer Daulby, Minority Staff Director; Timothy Monahan, 
Minority Director--Oversight; and Joy Yunji-Lee, Minority 
Counsel.
    The Chairperson. Our Committee will come to order.
    First, apologies to our witnesses, our Commissioners, for 
your patience. We had to reschedule because of a classified 
briefing, and then we had votes, which made us half an hour 
even later than we thought. We are sorry, but that is the 
nature of things these days.
    This is, however, a very important hearing on the Election 
Assistance Commission. It has been over eight years since this 
Committee held an oversight hearing on the EAC, and, over these 
8 years, the responsibilities and, more significantly, the 
challenges in election administration have evolved.
    The greatest change has been the introduction of a known 
election threat to our Nation. In advance of the Presidential 
election in 2016, Russia conducted cyber operations to 
interfere in Federal elections and to undermine public 
confidence in our American democracy.
    In response, last year, Congress appropriated $380 million 
for the EAC to distribute to States to support equipment 
purchases and security enhancements. The EAC has done a 
commendable job of distributing those sorely needed funds to 
States quickly and efficiently. I was heartened to learn that 
States could begin collecting their grant money less than 30 
days from the time the fiscal year 2018 Consolidated 
Appropriations Act was signed into law.
    Let's be clear: That appropriation should be just a start. 
This Committee must act on legislation to secure our elections.
    For the first time in 10 years, the EAC has its full 
complement of four commissioners. With a quorum now in place 
since the addition of two new commissioners, the Commission is 
poised for a fresh start. Because there is much work to do, we 
intend to keep you very busy.
    The Committee finds itself in a similar posture, with 
changes in leadership and membership. I am glad to sit next to 
our Ranking Member, Rodney Davis of Illinois, because Mr. Davis 
represents some of the good intentions of my colleagues across 
the aisle. We are no longer considering the termination of this 
agency, and we both agree that threats to our election systems 
are important and deserve our attention.
    In the wake of irrefutable evidence of foreign interference 
in our elections, I am hopeful we can make progress on election 
security soon. There have been bipartisan statements in support 
of new election security measures, and I am hopeful we can turn 
those statements into action, because this Committee should 
act.
    I am confident that we can produce a bipartisan election 
security initiative that will help our colleagues in the Senate 
see a way forward.
    In last week's EAC oversight hearing in the Senate 
Committee on Rules and Administration, Chairman Roy Blunt, our 
former colleague here in the House, explained that the Senate 
did not move forward on election security last year or this 
year because, I quote, ``I think the Majority Leader is of the 
view that this debate reaches no conclusion.''
    The leaders of this Committee and the leaders of our 
national intelligence community have seen a clear conclusion: 
We must secure our elections, and the buck must stop with us.
    As Senator Durbin pointed out last week about previous 
election interference, it was, and I quote, ``sweeping and 
systematic. And Illinois has evidence of it. They are coming at 
us again, and they might not be alone in their efforts. And 
shame on us if, as elected Members of the Senate, we can't even 
bring the matter to the Floor for a vote or a debate. We have 
an obligation, more than anything, to make sure that the 
integrity of our elections in a democracy is protected.''
    This Committee can pick up where our colleagues in the 
Senate Rules Committee left off, starting with the agency 
before us today, the agency focused on helping America vote.
    The EAC is under-resourced. The EAC operates with half the 
staff and half the budget it had a decade ago. While resources 
have decreased, demands on the agency have increased. EAC 
funding has moved from a high of $25.1 million in fiscal year 
2009 to a low of $9.2 million in fiscal year 2019. Similar 
challenges exist with respect to staff resources. Where the EAC 
had a staff of 49 in 2010, the 2019 staff numbers only 22, or 
less than half the size of the 2010 staff.
    We understand that you cannot be asked to do so much with 
so few resources. However, our support for this agency means we 
must also be fair and firm--accordingly, this oversight 
hearing, the first in 8 years. We will raise some profound 
challenges about the agency, and we expect forthright and 
honest answers.
    For this Committee to support the agency's request of 
significantly increased resources, the witnesses before us must 
demonstrate that they acknowledge problems with the Commission 
that have been raised both publicly and privately.
    This Committee can only champion increased support for this 
agency if the agency holds up its end of the bargain. And that 
will mean addressing severe personnel and management 
challenges, righting the ship of what has appeared to be an 
occasionally hyper-partisan and dysfunctional enterprise. 
Commissioners must assure this Committee that increased support 
will mean proper management, visionary leadership, and 
effective and reliable technical expertise at the agency.
    Together, we aim to protect America's most precious asset: 
her democracy. We believe in the good-faith efforts and 
intentions of all of you here as Committee members and 
witnesses, and we will do our best to support you because of 
the gravity of your charge. But this means that we will also 
demand the best of you, just as the American people demand the 
best of this Nation.
    Our hope is that this oversight can provide a roadmap for 
necessary improvements and the tremendous gains that could be 
made by infusing the agency with new resources and new 
personnel. Ultimately, it is our shared goal to discuss how to 
fully equip this agency and to make sure you are prepared and 
battle-ready for 2020.
    I look forward to your comments, but before that, I would 
recognize our Ranking Member, the gentleman from Illinois, Mr. 
Davis, for any comments he would like to make.
    [The statement of the Chairperson follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Mr. Davis of Illinois. Thank you, Madam Chairperson. I 
appreciate your willingness to hold these bipartisan hearings 
on reviewing our current election practices with the aim of 
helping our States to secure their elections.
    Election security is one of the most important issues that 
this Committee is tasked with, and I take the Committee's role 
of ensuring fair and secure elections very seriously, as I know 
you do too.
    As we discussed in our hearing last week, we know that at 
least 21 States were targeted by a foreign-state actor prior to 
the 2016 U.S. election, and we know that Russia undertook a 
misinformation campaign during the same election. But issues 
surrounding our election infrastructure are not limited to 
Russia, nor do they begin in 2016 or end in 2018.
    I believe we must approach election security on three 
fronts. First, we need to examine what we can learn and improve 
upon from the past. Second, we must examine what new and 
evolving challenges States are facing. Third, we need to 
examine what role the Federal Government can and should play in 
elections.
    The Election Assistance Commission is critical to all of 
these fronts, and I believe our commissioners will be able to 
provide a tremendous amount of insight this afternoon.
    This Committee was instrumental in the passage of the Help 
America Vote Act in 2002, from which most of our Nation's 
current election infrastructure can be traced. HAVA created the 
EAC and the grant structure through which over $3 billion 
passed between 2002 and 2010, and another $380 million 
continues following last year's appropriation.
    HAVA also tasked the EAC with the responsibility of 
adopting voluntary voting system guidelines, developing 
guidance to meet HAVA requirements, and serving as a central 
source of information on election administration.
    These services and others still being provided through the 
EAC warrant review, and if we can improve or add to them, we 
should. We must use this opportunity to ensure the Commission 
has the resources needed to complete not only its original 
mission from 2002 but also its new responsibilities undertaken 
since the 2016 election.
    Today, I want an honest assessment of what we have gotten 
right and what we have gotten wrong over the last 17 years. 
Also, where do we need to make improvements? And what do you 
all need from us to help us better serve our States?
    In examining what new and evolving challenges States are 
facing, cybersecurity is clearly at the forefront. This is not 
the only challenge, however, that our States face. The average 
age of most voting equipment in the United States will soon be 
measured in decades. The cost to recruit and train poll workers 
remains high. And voter registration system maintenance remains 
critical but costly.
    As my good friend Senator Blunt pointed out to my home 
State Senator last week during the Senate Rules EAC hearing, 
voter fraud does exist, and we must ensure our States are 
prepared against it. In examining how States have used and will 
continue to use their 2018 HAVA funds, I hope to learn more 
from our commissioners on the needs of our State and local 
officials.
    It is also important to hear directly from States on how 
they are using Federal resources to overcome unique challenges 
to their States and localities. Recently, my home State of 
Illinois was able to invest in a new Cyber Navigator Program 
that helps counties detect and defend themselves against 
cybersecurity attacks.
    I was able to hear more about this program just last week 
during a bipartisan election security roundtable that I held in 
my district. Local county officials graciously gave their time 
to discuss the inner workings of their election system and 
expressed their ideas to better secure their systems. I found 
the discussion helpful and productive, and I hope to hold more 
of these roundtables in the future as States continue to 
enhance their security and their efforts to ensure every 
American's vote is both counted and protected.
    Lastly, I believe assisting States with the tools they need 
to protect their election systems is the proper role for the 
Federal Government. This must be balanced against the 
constitutional duty for States to run and provide for their own 
elections. I am not for the Federal Government mandating or 
taking over State and local elections.
    The EAC plays an immeasurable role in being the interface 
between the Federal Government and our States. I not only want 
to hear from our witnesses today on how that interface is 
going, I also want to hear where we need to draw certain lines 
to ensure our federalism remains.
    As we move forward in our next steps to address election 
security, we can make a bunch of partisan noise. We can do that 
here today and blame one another for who should have done more 
to protect our elections. Or we can make progress. I choose the 
latter and encourage my colleague to join me in this approach.
    We have a real opportunity to address a growing problem 
that is causing Americans to lose confidence in their election 
systems, but we must work together to make sure the progress in 
keeping our Nation's election system secure and free from 
inference is our number-one priority.
    Thank you again to Madam Chairperson.
    Thank you to our witnesses for being here to speak on 
behalf of the EAC.
    And I yield back.
    [The statement of Mr. Davis of Illinois follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    The Chairperson. The gentleman yields back.
    Without objection, all Members of the Committee may have 
the opportunity to submit opening statements for the record.
    The Chairperson. At this point, I would like to introduce 
our witnesses, who are members of the Commission.
    Chairwoman Christy McCormick has served on the EAC since 
2014. She previously served as the Chairwoman for the 2015 
term. Prior to her appointment to the EAC, she served as a 
senior trial attorney in the Voting Rights Section of the Civil 
Rights Division at the Department of Justice, a position she 
held until joining the Commission.
    She was detailed by the Deputy Attorney General to be the 
senior attorney advisor and Acting Deputy Rule of Law 
Coordinator in the Office of the Rule of Law Coordinator at the 
U.S. Embassy in Baghdad, Iraq, from 2009 to 2010, where she 
worked as the U.S. elections expert overseeing the Iraqi 
national elections.
    Prior to joining the Department of Justice, Chairwoman 
McCormick served as judicial clerk to the Honorable Elizabeth 
A. McClanahan in the Court of Appeals from 2003 to 2006. She 
was also an assistant to the Solicitor General of the Office of 
Attorney General for Virginia from 2001 to 2003.
    We welcome you, Madam Chairwoman.
    We also have the Vice Chair of the Commission, Mr. Benjamin 
Hovland, who was confirmed to serve on the EAC in January of 
this year. He serves as the designated Federal officer for the 
Technical Guidelines Development Committee.
    Most recently, Vice Chair Hovland was the acting chief 
counsel for the U.S. Senate Committee on Rules and 
Administration, where he focused on election administration and 
campaign finance regulations.
    Earlier in his career, he was Deputy General Counsel for 
the Missouri Secretary of State, where he focused on legal 
issues related to the administration of State and Federal 
elections, including recounts, poll-worker training, voter 
registration list maintenance, statewide database matching, 
voter education resources, and ballot initiative litigation.
    As an attorney for the Fair Elections Legal Network, Vice 
Chair Hovland focused on protecting Americans' access to the 
ballot box, including litigation to stop efforts to purge 
voters from the rolls based on inaccurate data matching in the 
lead-up to the election.
    Commissioner Thomas Hicks has served on the EAC since 2014 
and has twice served as the Commission's chairman. He also 
serves as the designated Federal officer for the EAC Board of 
Advisors.
    Prior to his appointment to the EAC, Commissioner Hicks 
served as senior elections counsel and minority elections 
counsel on this Committee, the Committee on House 
Administration, a position he held from 2003 to 2014. He 
covered issues here relating to campaign finance, election 
reform, contested elections, and agency oversight.
    Before joining the Committee staff, he was a senior 
lobbyist and policy analyst for Common Cause. And earlier in 
his career, he was a special assistant and legislative 
assistant in the Office of Congressional Relations for the 
Office of Personnel Management.
    Last but certainly not least is Commissioner Donald Palmer, 
who was confirmed to serve on the EAC in January of this year. 
He is a former Bipartisan Policy Center fellow, where he 
provided testimony to State legislatures on election 
administration and voting reforms concerning election 
modernization.
    Commissioner Palmer was appointed secretary of the Virginia 
Board of Elections by former Virginia Governor Bob McDonnell in 
2011 and served as the Commonwealth's chief election officer 
until 2014. He formerly served as the Florida Department of 
State's Director of Elections from 2008 and the 2010 election 
cycles.
    Prior to his work in election administration, he served as 
a trial attorney with the Voting Rights Section of the 
Department of Justice's Civil Rights Division. He was a U.S. 
Navy intelligence officer and judge advocate general, and he 
was awarded the Navy Meritorious Service Medal, the Navy 
Commendation Medal, and the Joint Service Commendation Medal.
    Welcome to all of you. Your entire statements will be put 
in the record, and we ask that you summarize in about five 
minutes what you wish to tell us. When you get to one minute 
left, the yellow light on the table will go on. We would ask 
that you try and wrap up at that point.
    I ask also unanimous consent that all Members will have 
five days to revise and extend their remarks and have written 
statements made part of the record.
    So, with that, we will go to our witnesses.
    And let's start with you, Chairwoman McCormick. Welcome.
    Oh, you just have one statement? Okay. Well, that is fine, 
and then we will go to questions from all the members.
    [Audio malfunction in hearing room.]
    The Chairperson. What about another microphone? Mr. Palmer 
will give you his.
    Mr. Raskin. Who is in charge of technology around here?
    The Chairperson. Do any of them work? No.
    If we speak without the microphones, will it be picked up 
on the--are we rebooting?
    They are trying to reboot the system. While they are doing 
that, I will do some housekeeping matters.
    We will adhere to the five-minute rule after we hear from 
the Chairwoman of the Commission. But since you are speaking 
for everyone, we will have a very gentle gavel, if that helps.
    Does it work now?
    Yeah, why don't we have you come sit up here? And we will 
continue to try and reboot, so when we have questions everybody 
can be heard.
    Ms. McCormick. This is the short way to become a Member of 
the House of Representatives.
    The Chairperson. Welcome, Madam Chairwoman.

   STATEMENT OF THE HON. CHRISTY MCCORMICK, COMMISSIONER AND 
CHAIRWOMAN, ELECTION ASSISTANCE COMMISSION, ACCOMPANIED BY THE 
 HON. BENJAMIN HOVLAND, COMMISSIONER AND VICE CHAIR, ELECTION 
   ASSISTANCE COMMISSION, THE HON. DON PALMER, COMMISSIONER, 
  ELECTION ASSISTANCE COMMISSION; AND THE HON. THOMAS HICKS, 
          COMMISSIONER, ELECTION ASSISTANCE COMMISSION

    Ms. McCormick. Good afternoon, Chairperson Lofgren, Ranking 
Member Davis, and Members of the Committee. Thank you for the 
opportunity to testify before you this afternoon to detail the 
vital work of the U.S. Election Assistance Commission, better 
known as the EAC.
    We are pleased that a quorum of commissioners has been 
reestablished at the EAC, and we are delighted to discuss the 
Commission's work to fulfill its mission as prescribed by our 
enabling legislation, the Help America Vote Act of 2002.
    While we each took diverse paths in coming to the EAC, we 
are in lockstep when it comes to this message: The Commission 
is as needed today as it has been at any other time since it 
was established. But we are at a critical crossroads in regard 
to having sufficient resources necessary to better support 
State and local election administrators and the voters they 
serve.
    The EAC is the only Federal agency solely devoted to 
supporting those officials in this work and helping America 
vote. We are committed to maximizing our impact ahead of the 
next Federal election and providing services that not only meet 
but exceed the expectations of those who are counting on us to 
do our job.
    We take seriously the fact that voter confidence is 
enhanced when we adequately prepare for and respond to 
challenges such as election misinformation campaigns, 
persistent attempts to breach election systems and voter 
registration databases, and other real threats.
    As the agency best positioned to communicate directly with 
election officials across the country, the EAC played an early 
and leading role in establishing trust and open lines of 
communication between State and local leaders and the Federal 
Government entities that work on election security.
    The EAC drove the development of the election security 
working group that eventually became the Subsector Government 
Coordinating Council, or GCC, and played an integral role in 
establishing the Sector Coordinating Council, SCC, compromised 
of private election equipment manufacturers and vendors.
    Beyond the GCC and SCC, the Commission has taken a 
multifaceted approach to helping State and local election 
officials strengthen their election security. This work 
includes testing and federally certifying voting systems, 
providing hands-on security and post-election audit trainings 
across the country, producing security-focused resources, 
disseminating security best practices information and 
checklists to State and local election officials, as well as 
hosting widely attended forums that feature security experts as 
speakers.
    There is no shortage of ambition at the EAC when it comes 
to supporting this work, but there is a stark shortage of funds 
for such activities.
    Last year, Members of Congress provided $380 million in 
much-needed and much-appreciated financial support to the 
States and territories through the EAC. We know from State 
plans and expenditure reports that most States are spending 
these funds on items that will directly improve election 
security. In fact, at least 90 percent of the funds have been 
devoted to cybersecurity improvements, the purchase of new 
voting equipment, and improvements to voter registration 
systems.
    Through our most recent conversations with all 55 States 
and territories that received these funds, we believe that as 
of April 30, 2019, States have spent at least $108.14 million, 
or 29 percent, of the $380 million in grant funds. States are 
on a glide path to spending 85 percent of the funds on a 
straight-line projection by 2020.
    As States seek to invest these funds in purchasing new 
voting equipment, elections leaders are continuing to turn to 
the EAC's testing and certification program as a key resource 
in ensuring the Nation's voting systems are tested to confirm 
the secure and accurate tabulation of ballots.
    This includes information on when the EAC will implement 
the next iteration of the Voluntary Voting Systems Guidelines, 
which will be known as VVSG 2.0. The VVSG has historically 
consisted of principles, guidelines, and requirements against 
which voting systems can be tested to determine if the systems 
meet required standards. These guidelines are voluntary, and 
States may decide to adopt them entirely or in part.
    Last year, the TGDC, as well as the EAC's Board of Advisors 
and Standards Board, recommended adoption of the proposed VVSG 
2.0 guidelines and principles. Unfortunately, when one of the 
commissioners left the EAC, we lost our quorum and were not 
able to vote to move the new guidelines forward.
    That changed earlier this year when the Senate confirmed 
our two new EAC commissioners. In February, after Commissioner 
Palmer and Commissioner Hovland were confirmed, our first 
official act was to unanimously vote to publish the VVSG 2.0 
principles and guidelines in the Federal Register for a 90-day 
public comment period.
    Our first public hearing took place on April 10 in Memphis, 
and we held our second public meeting in Salt Lake City on 
April 23. Yesterday, we held our third hearing at our office in 
Silver Spring. The public comment period on the VVSG 2.0 
principles and guidelines concludes later this month on May 29.
    While election security is a topic that is a priority for 
all of us, election officials have support needs beyond 
security. To demonstrate this, the EAC has developed a wheel of 
competencies in which each section represents a similar level 
of expertise and effort. This wheel represents the fundamental 
roadmap of issues the EAC should address fully to meet the 
vision of HAVA.
    Today, the EAC lacks sufficient funding for the human 
capital capacity to address all of these areas in depth. In 
fact, the last time the EAC had a full slate of commissioners, 
the Commission had 49 employees. Today, it has only 22, and our 
budget is 50 percent less than it was in fiscal year 2010. 
Without additional resources, we simply will not be able to 
provide the breadth of support election officials need and 
expect from the EAC to ensure secure, accessible, and efficient 
elections.
    With the reestablishment of a quorum of commissioners, the 
EAC is ready for its next chapter. My fellow commissioners and 
I look forward to working with Congress as we continue our 
efforts to help America vote.
    I am happy to answer any questions you have following 
today's testimony. Thank you.
    [The statement of Ms. McCormick follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   

    The Chairperson. Thank you very much.
    I think they are trying to set up an alternate microphone 
system.
    Mr. Hicks. It is working.
    The Chairperson. Is it working?
    Mr. Hicks. It should be working, yes.
    The Chairperson. Ah, very good.
    So now we can go to our members for questions, five minutes 
apiece. And we will turn first to our Ranking Member, Mr. 
Davis, for his questions.
    Mr. Davis of Illinois. Well, here we go with the 
microphones.
    Commissioner McCormick, I will start with you. Thank you. I 
certainly wish many of our folks that testify together combined 
their opening statements like that. That was great for time. I 
really look forward to hearing the testimony from each and 
every one of you with questions.
    So, Ms. McCormick, you mentioned at the Senate hearing last 
week that parts of the EAC's core mission have suffered with 
the additional roles that the Commission has taken on since 
2016. Can you first describe the transformation that the EAC 
has undergone since late 2016 and, second, describe how your 
core mission has suffered?
    Ms. McCormick. Thank you for the question, Representative 
Davis.
    The EAC has undergone somewhat of a transition since a 
quorum was reestablished in 2015. One of the commissioners' top 
priorities was to right the posture of the agency and to work 
on emphasizing our assistance mission to the State and local 
election officials. Post-2016, the EAC has taken on an 
additional, very important mission, and that is to support 
election administrators to prepare for the escalating threat 
dynamic that we now face in this country.
    Election security has always been a top priority for 
election officials. And when HAVA was passed, the current 
environment was not envisioned, and the EAC did not have this 
kind of a mission in regard to security as we do now.
    We have stepped up and tried to fill that mission, although 
we have had to stretch our employees to their breaking point in 
order to meet the requirements that we feel are needed to 
support the State and local election officials to help mitigate 
the risks and prepare--to keep the secure infrastructure with 
elections.
    Mr. Davis of Illinois. Well, Chairwoman McCormick, thank 
you. I agree with your assessment that some things have 
changed. And by all accounts, the Commission is doing what it 
can to provide significant value to our States, not only in the 
2018 midterm elections. I fully expect the Commission to work 
effectively again in a bipartisan manner both internally and 
with the States for the 2020 Presidential election.
    I have some time left. Okay.
    Chairwoman McCormick or Commissioner Palmer, is any method 
of voting 100 percent secure?
    Mr. Palmer. Well, the short answer is no. But there are a 
variety of steps that both States and the EAC can do through 
its certification program to mitigate those challenges.
    Mr. Davis of Illinois. Okay.
    Can you describe the common voting machines in use across 
the country today?
    Mr. Palmer. Yes, sir. The majority is--about four different 
types of systems are used. Basically, the paper optical-scan 
voting system is used in the majority of precincts across the 
country. You also have the ballot-marking devices with paper. 
You also have DREs with VVPAT for a paper trail. And then you 
have DREs in a minority of States that were used in 2018 that 
have no paper trail with those DREs.
    Mr. Davis of Illinois. All right.
    We have heard a lot about paper ballots recently. Are paper 
ballots necessarily more safe and secure than a DRE machine 
with the voter-verified paper audit trail?
    Mr. Palmer. Not necessarily, but the paper does provide 
some alternative mechanism if there are disputes. If you need 
to do an audit or recount, you have that paper that you could 
then look at if there were some allegations of interference or 
intrusion.
    Mr. Davis of Illinois. Yeah. And you are right; they do 
have their own challenges. I can remember in--I think it was 
the 2012 Illinois primary, had a problem with ballots in one 
county going through the optical scanner. The ballots were 
printed too large, so they had to take a paper cutter and cut 
them down to be able to get them to go through. So they do 
present some challenges.
    What other challenges do you think could be associated with 
paper ballots?
    Mr. Palmer. Well, paper ballots, particularly for--there is 
the management of all the paper ballots that occurs. And for 
many jurisdictions that have used DREs, there is a process by 
which they have to become more acquainted with the paper and 
sort of making sure there is ballot management so you don't 
misplace or lose ballots and you make sure you have them all in 
a secure manner.
    Also, directly voting, hand to a ballot, sometimes has 
issues, or it often does, with individuals with disabilities, 
because they don't have that capability. So there may have to 
be some sort of technology like a ballot-marking device or 
certain DRE technology that allows a voter with a disability to 
vote independently, privately, which is one of the charges 
under the Help America Vote Act.
    Mr. Davis of Illinois. Right.
    I see my time has run out. I yield back.
    The Chairperson. The gentleman yields back.
    I would then turn to the gentleman from Maryland for his 
questions.
    Mr. Raskin. Thank you, Madam Chairperson.
    Welcome to all of you. As the Congressman from the EAC in 
Silver Spring, Maryland, I am delighted to see all of you here, 
and I have very much enjoyed my visits there.
    Mr. Hicks, thank you for showing me around when you were 
the Chairman. I appreciate that.
    Let's see. Chairwoman McCormick, let me ask you, the term 
of the current Executive Director, Brian Newby, expires in 
November. And, obviously, it is crucial that we get the next ED 
in place quickly to guarantee a smooth transition and a fully 
operational, functional EAC for the election. Given the search 
for a new Executive Director could take a long time, presumably 
we would want to start the process as soon as possible.
    You were asked about this in the Rules Committee hearing on 
the Senate side last week, whether you would commit to holding 
a vote to allow the Board of Advisors and Standards Board to 
begin searching, and you said you would consult with the legal 
team to figure it out. Have you spoken with the legal team, and 
what was the result of your conversation?
    Ms. McCormick. Well, there is a process set out in HAVA, 
and that is that we have to wait until there is a vacancy in 
order to start the process of an executive search through the 
two boards that we have executive search committees that would 
be set up at that time. And that would mean that we would have 
to wait until there is a vacancy.
    Mr. Raskin. You mean you can't start the process of getting 
ready? Like, I don't know, are you finding an outside firm to 
do the search, or you can't put out the word now? Why is--I 
don't understand.
    Ms. McCormick. Well, that is under HAVA, and we are just--I 
am following our governing statute----
    Mr. Raskin. It says you can't do any preparatory----
    Ms. McCormick. It says when there is a vacancy.
    Mr. Raskin. Well, my----
    Ms. McCormick. And, also, I think it is important for us to 
have some continuity leading up to the 2020 Presidential 
election. It is important for us to have a leadership team in 
place. And if we wait until there is a vacancy, it will take us 
a while to do that, putting us right smack dab in the middle of 
an election year----
    Mr. Raskin. Oh, so you--let me get it straight.
    Ms. McCormick [continuing]. Meaning that we would change 
the leadership----
    Mr. Raskin. So, in other words----
    Ms. McCormick [continuing]. And I am not comfortable with 
changing the leadership.
    Mr. Raskin. I am sorry. So you are not going to wait for 
the vacancy to take place?
    Ms. McCormick. No, I am. I am going to wait until the--I am 
going to follow the process that HAVA sets out for us.
    Mr. Raskin. My concern is, if you wait until November when 
there is a vacancy and there are not three votes to retain Mr. 
Newby or three votes to begin a search process, the Commission 
will have to move to its succession plan, because, as I 
understand it, Mr. Newby is not permitted to stay around in a 
holdover status.
    So, under the EAC's Organizational Management Policy 
Statement of 2015, the agency has established an order of 
succession in the event that there is nobody in the executive 
director position. The first person in the order of succession 
for the Executive Director is the general counsel, but his term 
expires in November as well. Is that right?
    Ms. McCormick. Yes.
    Mr. Raskin. So the next person in the order of succession 
is the chief operating officer, but that position is vacant 
now, right?
    Ms. McCormick. Yes.
    Mr. Raskin. So, if there is no general counsel and no COO, 
the next person in order of succession is the chief financial 
officer. Is that position filled?
    Ms. McCormick. That position is not filled. We do have a 
different person with a different title doing our finances 
right now.
    Mr. Raskin. Okay.
    Ms. McCormick. But you have to look at--the policy says 
``when there are no commissioners.'' So that succession policy 
would not be in effect in October because all the commissioners 
will be there, presumptively.
    Mr. Raskin. I am not sure that is the way I am reading it, 
but I will go back and check that out.
    But just to get it straight, so if there is no general 
counsel, there is no COO, there is no CFO, the next person in 
line to run the EAC would be the communications director. Is 
that right under the----
    Ms. McCormick. That is right under that policy. But, in my 
opinion, that policy--I would have to check with our general 
counsel, but that policy would not be in effect because we 
still retain commissioners. So that succession policy goes into 
effect when there are no commissioners, no executive director, 
no general counsel.
    Mr. Raskin. So what happens if there are commissioners, 
under your reading of it?
    Ms. McCormick. Well, then we would have to have either a 
vote to retain the current leadership, or we maybe possibly 
could put them in an acting status. I am not sure. We would 
have to talk to general counsel about that.
    Mr. Raskin. Well, you know, it just sounds like it is not 
fully staffed up. And, again, my reading of it, admittedly 
cursory, was that you would go down this line of succession; 
you end up with the communications director as the possible 
acting executive director of the Election Assistance Commission 
going into the 2020 elections.
    Do you view the current statutory formula as preventing you 
from establishing a search committee now?
    Ms. McCormick. Yes, sir, I do.
    Mr. Raskin. Can you cite for me the part of it which you 
think prevents----
    Ms. McCormick. I don't have HAVA in front of me, but it 
does say ``upon a vacancy'' or something of that nature.
    Mr. Raskin. Right, but----
    Ms. McCormick. We don't have a vacancy right now. And I am 
confident that the commissioners can work in a bipartisan 
manner to assure that we have continuity at this time with our 
leadership and moving into the Presidential election in 2020.
    Mr. Raskin. But, I mean, the term is up regardless, so 
there would be a vacancy even if it is momentary, right? So you 
do not view yourself as having to go through a search process 
or to be prepared for a search process?
    Ms. McCormick. I think we can--there is a number of steps 
that come before that, and that is including deciding whether 
or not we want to continue the term of the current leadership. 
And if that is the case, that we don't continue the 
leadership----
    Mr. Raskin. Okay.
    Ms. McCormick [continuing]. Then we will look to the 
process.
    Mr. Raskin. All right. Thank you.
    Mr. Hicks, would you weigh in on this, if you would? I 
mean, is this the right way to proceed? I mean, for all I know, 
it is, but it seems odd to me. I have not seen that before.
    Mr. Hicks. The Chairwoman is correct, in that it states 
that we can't start anything until there is a vacancy. I don't 
think that prohibits the Board of Advisors or the Standards 
Board from operating on their own accord to set up a committee 
to start the search. That would also--we have to check with the 
general counsel on that, but I don't think that that precludes 
the start of a search by those two boards right now.
    Mr. Raskin. Well, when----
    Mr. Hicks. We don't have to tell them to do that, but they 
can do that on their own, as they are our advisory boards.
    Mr. Raskin. I see.
    When you say ``consult with the general counsel,'' who are 
you consulting with, given that there is no general counsel?
    Mr. Hicks. We have a general counsel now.
    Mr. Raskin. I see.
    Mr. Hicks. So----
    Mr. Raskin. Oh, okay.
    Mr. Hicks. So that would----
    Mr. Raskin. I gotcha.
    Okay. I don't know whether any of the other commissioners 
wanted to weigh in on this question. Or am I out of time?
    I yield back, Madam Chairperson. Thank you.
    The Chairperson. The gentleman--but we have a gentle gavel 
today because we just had one opening statement.
    The gentleman from Georgia is recognized.
    Mr. Loudermilk. Thank you, Madam Chairperson.
    Just to follow up on what Mr. Raskin was asking, it sounds 
like, though, you are trying to follow the law in the way it--
even if the law is not advantageous to actually filling the 
executive director's position. Is that true? Just trying to 
follow.
    Ms. McCormick. That is correct, sir. We are trying to 
follow the HAVA process set out by Congress.
    Mr. Loudermilk. Okay. I appreciate that. We don't always 
see that in a lot of agencies, trying to follow the laws that 
we pass.
    Kind of a general question for everyone. Do you feel like 
that the voluntary voting standards is one of the most 
important functions of what you do?
    Mr. Palmer. Yes, sir.
    Ms. McCormick. Yes, sir.
    Mr. Hovland. Yes.
    Mr. Hicks. Yes.
    Mr. Loudermilk. Okay.
    And this could go to anyone that would like to do it. Could 
you briefly just walk us through the development of the VVSG 
2.0, how you get to the--I know you spoke about it briefly, but 
what is the process of getting to actually getting this?
    Mr. Palmer. So, Representative Loudermilk, I will try to 
answer that.
    So the process by which you would update or establish the 
VVSG--in this case, it would be 2.0--is HAVA sets out a 
process, once again that Congress has enacted, where the EAC 
has advisory boards. You have the Technical Guidelines 
Development Committee. You have the advisory board. You have 
the Standards Board, which is made up of election officials. 
TGDC is made up of technical experts and some State officials, 
and the Board of Advisors, of stakeholders in the process. And 
these three committees provide input and recommendations to the 
EAC on what those new standards would be.
    We do this in conjunction with NIST, the National Institute 
of Science and Technology. They work with us; they work with 
the boards. And these recommended standards are then provided 
to the Executive Director for his recommendation to this board, 
to us.
    We have hearings on those to make sure that we are trying 
to bring technology that--for the last 5 to 10 years, bring 
those to the new standards so our voting systems are as secure 
and as accessible as possible--usability, all those functions.
    So that is the process that we are in right now with 2.0. 
We are now engaged with the high-level standards. We are 
looking at requirements and we are going to have public 
hearings on these things. Eventually, we will vote, work with 
the vendors to provide test assertions to which they can bring 
their voting systems into our laboratories for testing, and 
then provide those to the marketplace, to the election 
officials, which voters would then vote on.
    So that is really one of our major duties, and we take it 
very seriously. It is very complicated and sometimes confusing, 
even for us. But we have a lot of wealth of experience on the 
Commission. We have a team that has been in place for a long 
time. And we are hoping to bring this to fruition so we can 
have new voting systems for 2024.
    Mr. Loudermilk. When do you anticipate having 2.0 ready?
    Mr. Palmer. Well, my hope is sometime in early 2020 or late 
2019 that we could have enough in place--that is my goal, and I 
think we can meet it--that the manufacturers know what our new 
requirements are. So we have the high-level guidelines of what 
the system should be, we have the requirements which those 
systems will be tested to, and then we could have that 
conversation with the laboratories and with our manufacturers, 
to the vendors, so we can then bring those new voting systems--
in about 2 to 3 years, they will have new voting systems in the 
marketplace.
    My hope, realistically, is that election officials and 
jurisdictions will be able to buy new equipment in 2022-2023--
--
    Mr. Loudermilk. Okay.
    Mr. Palmer [continuing]. So there are new voting systems 
for some jurisdictions----
    Mr. Loudermilk. You are talking about two to three years to 
develop them once you get the standards out there?
    Mr. Palmer. Yes, sir.
    Mr. Loudermilk. And, then, you are involved in the testing?
    Mr. Palmer. We are. The EAC is involved with the testing of 
those voting systems that the manufacturers bring in under 
those standards. And so we are involved in that process.
    Mr. Loudermilk. Do you anticipate the new voting machines, 
DREs with VVPAT, available under 2.0?
    Mr. Palmer. Technically, it is probably possible. I don't 
know--I think one manufacturer has considered building a new 
DRE. But I don't--right now, most of the vendors now are with 
ballot-marking devices or optical scan, digital scan of paper. 
And so most of the new systems, if not all, will be paper-
based----
    Mr. Loudermilk. Really.
    Mr. Palmer [continuing]. Voting systems that come out of 
2.0.
    Mr. Loudermilk. Really.
    Mr. Palmer. Well, there is a section of HAVA that does 
require certain DRE technology----
    Mr. Loudermilk. Yeah.
    Mr. Palmer [continuing]. Under HAVA because of the focus on 
accessibility for voters with disabilities.
    Mr. Loudermilk. Right. And you mentioned that----
    Mr. Palmer. Right.
    Mr. Loudermilk [continuing]. In your questions. One of my 
concerns is that the technology of the DRE does facilitate for 
moving folks through a little faster in a lot of these, but it 
does require more machines. So, anyhow.
    All right. I see my time has expired. I yield back. Thank 
you.
    The Chairperson. The gentleman yields back.
    The gentlelady from California, Mrs. Davis, is recognized.
    Mrs. Davis of California. Thank you, Madam Chairperson.
    Thank you all for being here.
    It sounds like it hasn't been easy lately, that it has been 
tough being part of the Commission.
    I wonder if you could talk a little bit more about the $380 
million of HAVA funds that--I guess with the grant expenditure 
report, there were certainly a number of questions of whether 
that should have been spent more quickly. But I also noticed 
that the rest of that money should be spent on upgrades, up to 
about 85 percent. I was just wondering about that. How does 
that mesh with what you are hearing from the States and 
localities?
    Mr. Hovland. Thank you, Representative Davis.
    Yes, the $380 million from fiscal year 2018 was very 
welcome by the State and local election administrators. I think 
what we saw in our initial report, that was based on fiscal 
year 2018, and so was it was only through September 30, and so 
you just saw a snapshot. But when you looked at that with the 
State plans that were provided, you could see that States were 
choosing from a menu of options.
    Recently, our grants team reached out to all the States and 
updated that number, so you can project trajectory that about 
85 percent of the money will be spent in advance of 2020. And I 
think that is really to be expected based on things like 
procurement timelines for replacing equipment. Certainly, when 
that money was distributed in 2018, there was a general 
election around the corner, and so that limited what the 
resources could be used for in advance of the election.
    So, now, I think that we have seen this menu of options, 
whether that is people upgrading their statewide voter 
registration databases, hardening those systems with 
multifactor authentication--the Ranking Member, Mr. Davis, his 
State has implemented the Cyber Navigators that he mentioned. I 
think this is a great example of a State usage of money.
    And so what we are hearing from State and locals is that 
that $380 million was greatly appreciated, but it is an 
investment. They are having to choose from that menu rather 
than getting to do all of those things which they would like to 
do to help secure our elections.
    Mrs. Davis of California. Yes. Thank you.
    Does it kind of balance out, then? I mean, do you have a 
sense sometimes that--or what you are seeing--that the needs 
are so much greater than this, really? Even though you are 
talking about up to 85 percent, is that--you know, it sounds 
like--I am trying to figure out how you are going to run an 
agency with 22 employees so that you have the people who are 
able to facilitate this distribution. How do you do that?
    Mr. Hovland. Well, I would say that is absolutely--that is 
a separate issue but one that I welcome hearing about. Yes, the 
reality--it was mentioned that our budget for this year was 
$9.2 million. Actually, $1.25 million of that passes through to 
NIST, so we are at $7.95 million. You know, again, we have 22 
employees. We are a Federal agency with one legal counsel for 
our agency, with one financial person for our agency.
    I was very heartened in the opening statements to hear the 
Chairperson talk about the fact that this Committee was no 
longer considering the termination of our agency. And I welcome 
this moment where we can move beyond whether or not to keep the 
EAC and move into----
    Mrs. Davis of California. Can I ask you----
    Mr. Hovland [continuing]. Asking how we get better.
    Mrs. Davis of California [continuing]. Where do you think 
that capacity to act is most felt? Where are the needs the 
greatest right now?
    Mr. Hovland. Well, I think part of it is, you know, number 
one, we need depth. We need to have more than one counsel, 
frankly.
    But, also, the impact of that decreased funding results in 
programming. So when you have--election officials, particularly 
at the local level, are tasked with an extremely difficult job. 
And what we really do is help spread the best practices, help 
them learn from their colleagues. Things like our clearinghouse 
function and the ``clearies'' that we give out really embrace 
federalism, to the Ranking Member's point earlier, and share 
these best practices across States. And we aren't able to do 
that as effectively----
    Mrs. Davis of California. Right.
    Mr. Hovland [continuing]. Because of our limited resources.
    Mrs. Davis of California. And I will say, under the law, 
under HAVA, that was your mission----
    Mr. Hovland. Absolutely.
    Mrs. Davis of California [continuing]. To make sure that 
you could relay those practices and that people could have a 
way of understanding where, in fact, they might be lagging 
behind, even, in terms of reaching out to their electorate in 
the areas.
    All right. Thank you very much.
    What would you like us to do?
    Mr. Hicks. Give us more resources, plain and simple. I 
think that is the number-one goal for the country in terms of 
ensuring that--wherever I have gone, people have said: Thank 
you for the downpayment of the $380 million, but we need 
additional resources for the election for 2020, 2022, 2024, and 
beyond.
    I think that they want us to do more in terms of our IT 
training, to work more with DHS. I think that there is a ton of 
other things that--I am happy to talk with your staff for the 
next hour and a half on things that we can use and need.
    Mrs. Davis of California. Okay.
    Thank you very much, Madam Chairperson.
    The Chairperson. The gentleman from North Carolina is 
recognized.
    Mr. Butterfield. Thank you very much, Madam Chairperson.
    Let me just start with some basics.
    The four of you are appointed for four-year terms--is that 
correct?--and confirmed by the Senate. And you employ the 
Executive Director for a four-year term.
    Well, let me address it to you, Ms. McCormick. Is that 
correct? The four of you, acting in collaboration with each 
other, employ the Executive Director.
    Ms. McCormick. Yes. We take recommendations from our 
boards----
    Mr. Butterfield. Sure.
    Ms. McCormick [continuing]. And go through the interview 
process. And then----
    Mr. Butterfield. And your terms expire in November, and 
your Executive Director's term expires in November. Is that 
correct?
    Ms. McCormick. My term has been expired for many years.
    Mr. Butterfield. You are holding over.
    Ms. McCormick. I am on a holdover.
    Mr. Butterfield. You are holding over right now.
    Is it correct to say that there is some controversy 
surrounding your Executive Director, Mr. Newby, Brian Newby? 
Would that be a fair statement?
    Ms. McCormick. I don't think that is a fair statement. I 
think----
    Mr. Butterfield. You have not heard any----
    Ms. McCormick [continuing]. That has been created. I think 
that Mr. Newby is doing a fine job. And----
    Mr. Butterfield. Are you aware of a----
    Ms. McCormick [continuing]. I think the Commission has done 
an amazing amount of work with the limited resources that it 
has.
    Mr. Butterfield. I understand.
    Ms. McCormick. It is unfortunate that there are some people 
who are attacking him, but----
    Mr. Butterfield. Even in your agency, there are some people 
who are very dissatisfied.
    Ms. McCormick. There are some employees who are unhappy----
    Mr. Butterfield. Yes.
    Ms. McCormick [continuing]. But they have left the agency. 
Yes.
    Mr. Butterfield. From what I can understand, in 2017, there 
was a 16-percent drop in support for senior leadership. Is that 
an accurate survey? Sixteen-percent drop in 2017 for support 
for senior leaders, and 23-percent drop in satisfaction 
regarding your policies and practices, and a 27-percent drop in 
another category.
    You are not aware of this survey?
    Ms. McCormick. I haven't read that survey, myself. I know 
that there is an employee satisfaction survey that goes out 
throughout the Federal Government, and, quite frankly, those 
are not that bad compared to some other agencies across the 
Federal Government.
    Mr. Butterfield. When you get back to the office, if you 
find this to be incorrect, I would need to know it, because I 
don't need to repeat if it is not correct.
    Are you telling me that you personally are satisfied with 
the performance of Brian Newby?
    Ms. McCormick. I am very confident in his abilities, and he 
is doing a fine job for the agency.
    Mr. Butterfield. And do you anticipate that he will be 
retained as Executive Director?
    Ms. McCormick. I hope so.
    Mr. Butterfield. Legally, is that possible?
    Ms. McCormick. I hope so.
    Mr. Butterfield. And it would be a vote of three of you in 
order to make that happen?
    Ms. McCormick. I hope that is the case.
    Mr. Butterfield. And if you had the will to do it or the 
desire to do it, would you be legally capable of terminating 
his position with the agency if you had just cause for doing 
so?
    Ms. McCormick. If we had just cause. Whenever you have just 
cause, there is----
    Mr. Butterfield. So you cannot assure us that there will be 
a change in leadership in November at the Executive Director 
level?
    Ms. McCormick. I don't know what is going to happen.
    Mr. Butterfield. Well----
    Ms. McCormick. We are going to follow the process that HAVA 
sets out, and I am hoping that we can work in bipartisan manner 
to keep the continuity of our leadership through the----
    Mr. Butterfield. But it will require three votes to retain 
his leadership. Is that right?
    Ms. McCormick. Yes, it does.
    Mr. Butterfield. Yeah.
    Are you saying that you feel that you do not have the 
statutory authority to begin a search for a new leader if the 
commissioners decides not to continue his leadership? You don't 
have the statutory authority to do that?
    Ms. McCormick. We have the statutory authority to do that 
once there is a vacancy in that position, yes.
    Mr. Butterfield. And you don't believe that you can 
anticipate a vacancy.
    Ms. McCormick. That is correct. We don't have a vacancy. 
And the way HAVA is written, it says that an executive search 
committee shall be set up in the boards once there is a 
vacancy.
    Mr. Butterfield. All right.
    Mr. Hicks, do you have unconditional confidence in Brian 
Newby as Executive Director?
    Mr. Hicks. I think there have been some growing pains. I 
think there are some good things that he has done; I think that 
there are some bad things that he does done. But I think that 
that is something that the Commission should look at, whether 
or not we want to retain him and move forward or whether or not 
we want to open this up for new, additional folks to apply for 
the job.
    We have two new commissioners who are here now who didn't 
have the opportunity to vote on that. But I think opening it up 
to whoever wants to apply for the job now--as the chair and 
ranking member said earlier, that this was a different time, 
that people were looking to get rid of the agency, and so I 
think that there might be----
    Mr. Butterfield. Are you aware of the employee survey in 
2017 that I made reference to?
    Mr. Hicks. I am aware of it. I have not read it.
    Mr. Butterfield. It appears to me that there is low morale 
in the agency, that so many of your employees have lost 
confidence in your leadership. And I would ask that you look 
very plainly at what that suggests.
    Mr. Palmer, I will conclude with you. Are you totally 
satisfied with your executive director, or do you think there 
is room for improvement?
    Mr. Palmer. I do have confidence in Executive Director 
Newby. I am new to the agency, but I have also worked with the 
agency, and many election officials at the local and State 
level admire his leadership in the community and at the EAC.
    Mr. Butterfield. But my question is, is there room for 
improvement?
    Mr. Palmer. Well, there is always room for improvement.
    Mr. Butterfield. Yeah.
    Mr. Palmer. But what I would say is that the EAC, going 
back five to ten years, had a number of IG complaints of 
discrimination and retaliation at the executive level. We have 
not had--in the two to three years that I have seen of IG 
reports under Mr. Newby's leadership, there haven't been any 
complaints that have been brought to the level of the IG, which 
is, you know, a fairly invasive investigatory--so the IG has 
not had any complaints when it comes to retaliation or issues 
regarding management.
    Mr. Butterfield. During the Nixon years, there was 
suggestion that there was a cancer growing on the Presidency. I 
feel that there is a cancer growing on this Commission.
    I yield back.
    The Chairperson. The gentlelady from Ohio is recognized for 
five minutes.
    Ms. Fudge. Thank you very much, Madam Chairperson.
    And thank you all so much for being here.
    Certainly, we want for every Federal agency, including 
yours, to be above reproach and people not be concerned about 
who runs it.
    Let me just ask this question, Madam Chairperson. If you 
had an employee who, in his recent history at an executive 
level, had misused and mismanaged public funds, who had abused 
his authority, who had engaged in an inappropriate relationship 
with a subordinate, who displayed lewd behavior in the 
workplace, what would you do with that employee?
    Ms. McCormick. There are due process provisions in the 
Federal Government. And so we have had those situations at the 
EAC in the past. We had an employee who misused Federal funds 
and violated the law. And we were told that there was a due 
process that we had to follow----
    Ms. Fudge. And what happened to that employee?
    Ms. McCormick. That employee was retained, actually, and 
eventually retired from the agency.
    Ms. Fudge. Okay. But do you not have such an employee now?
    Ms. McCormick. I am not aware of an employee who is 
behaving that way, no.
    Ms. Fudge. Well, let me make sure that I send this to you, 
because those are the accusations against Mr. Newby from his 
former employee just a few months after you hired him. So I 
will make sure you have that information.
    I think it is important to be upfront about what we are 
dealing with. And the one thing that I cannot say enough is 
that, when we are using taxpayers' dollars, we need to have the 
highest standards. And I clearly don't think that that is the 
case here.
    Mr. Hicks, can you give me any information as to what you 
have learned from the EAC State funding plans that have been 
received?
    Or the Chairwoman. Either one.
    Mr. Hicks. Thank you for the question.
    I think that some of the things that we have learned from 
the State funding plans, in terms of the $380 million that went 
out, is that States need additional funds, that they are 
looking to purchase partial voting equipment because they don't 
have enough money to fully fund for voting equipment overall.
    I think 95 percent of the money is going towards three 
different things: either voting equipment, voter registration, 
or cybersecurity upgrades. But I think that, overall, what we 
have learned is that they basically need additional funding.
    Ms. Fudge. How much funding do you think they need?
    Mr. Hicks. I knew that was coming. As elections happen 
every 2 years, I think that it depends. Because what is needed 
in Maine might not be what is needed in Ohio.
    Ms. Fudge. Right. But just in light of the troubles that we 
have had over the last few elections--Mr. Davis is right, it 
didn't start in 2016, but it is getting worse. It is not 
getting better.
    So even though this is not the first occurrence of 
interference by Russia, and maybe they are now saying possibly 
China and others, what is the most pressing need for States 
right now in terms of the security of their equipment?
    And maybe I need to go down to Mr. Palmer.
    Mr. Palmer. Well, with regard to the most pressing need for 
security, you might think the answer would be voting systems, 
but I actually believe that voter registration systems at the 
State and local level are the most pressing need for upgrade. 
And so--I will just leave it at that. I think that is our most 
vulnerable aspect of what cyber intrusions are, and so I 
believe those two areas would be the most pressing need.
    Ms. Fudge. Okay.
    I am going to close, Madam Chairperson, but I will just say 
this. When there is no confidence in the leadership of the 
department, you get reports like you just saw, with morale low, 
people not believing in their leadership. Those are the things 
that happen.
    I would suggest very, very strongly that--I will make sure 
that you get it--that you read it and then still decide if that 
is the proper leadership for this organization.
    I yield back, Madam Chairperson.
    The Chairperson. The gentlelady yields back.
    The gentleman from North Carolina is recognized.
    Mr. Walker. Thank you very much.
    The question to start with is for Ms. McCormick.
    Have you worked with the Department of Homeland Security to 
understand and respond to threats after foreign interference in 
the 2016 election?
    Ms. McCormick. We have been working with the Department of 
Homeland Security since before the 2016 Presidential election 
and providing information to the State and local election 
officials on escalating threats over the years, yes.
    Mr. Walker. If we could unpack that a little bit more, what 
initiatives or guidelines does the EAC specifically have to 
address election network hacking or voter data manipulation?
    Ms. McCormick. We have a multifaceted approach to providing 
the States with the resources that they need. We provide 
trainings, we provide checklists, resources, white papers. We 
are available at any time to discuss issues with the States and 
locals with regard to their election security. We have 
partnered with DHS and other agencies on products that the 
States and locals can use to secure their infrastructure.
    Mr. Walker. Obviously, this is going to be a big topic of 
discussion going into the 2020 election as well as future 
elections. What initiatives would you like to see the EAC take 
to ensure our voting systems are strong and secure?
    Ms. McCormick. Well, if we had the resources, I think we 
would like to see some cyber assistance units out amongst the 
States that we can have available to the State and local 
election officials to call on to help them with securing and 
mitigating any risks that are out there.
    Mr. Walker. Anything in the hopper to deal specifically 
with foreign interference when it comes to false information or 
misrepresentation?
    Ms. McCormick. Well, social media is not in our bailiwick 
actually. That is not part of our mission. I think that there 
are some ideas out there that we can discuss, perhaps providing 
a toolkit to State and local election officials to provide to 
campaigns when they register to become, you know, candidates on 
the issues and what they can do to secure their systems as 
well.
    Mr. Walker. Sure.
    If I could get just a quick ``yes'' or ``no'' coming across 
the panel, starting, left to right, with the Honorable Donald 
Palmer. Do you agree that States need play a significant role 
in funding their election equipment?
    Mr. Palmer. Yes, I do believe there should be a 
partnership.
    Mr. Walker. Okay.
    Ms. McCormick.
    Ms. McCormick. Yes, I do.
    Mr. Walker. Sir?
    Mr. Hovland. Yes.
    Mr. Walker. Okay.
    Mr. Hicks.
    Mr. Hicks. Yes, I believe that----
    Mr. Walker. Thank you.
    Mr. Hicks [continuing]. Show that.
    Mr. Walker. Okay. Thank you.
    Regarding the 2018 appropriation to date, how much of that 
money has been distributed to the States, and how much of that 
has been spent by the States? Does anybody want to take a stab 
at that, or does anybody have a knowledge base? I don't want to 
put anybody on the spot unless you have had a chance to----
    Mr. Hicks. Well, 100 percent has been distributed out to 
the States.
    Mr. Walker. Okay. One hundred percent.
    Mr. Hicks. Right. We got that money out last year.
    Mr. Walker. Okay. And that money is being spent on this 
arena that we are talking----
    Mr. Hicks. Cybersecurity issues, purchasing new voting 
equipment, and voter registration are the three main ones that 
I believe States have done. But they are also going to other 
aspects of it as well.
    Mr. Walker. I am out of questions, but I am going to come 
up with a few more, because I just want to hear that baritone 
voice by Mr. Thomas Hicks speak a little bit longer there. So 
that is ``Lou Rawls, eat your heart out'' right there.
    Okay. I will yield back, Madam Chairperson.
    The Chairperson. The gentleman yields back.
    I am wondering, for each commissioner, do you think there 
would be value for the EAC to add a division that is simply 
dedicated to technological election security?
    Ms. McCormick. I think that is an idea that we could look 
at. I think that we have a pretty robust testing and 
certification program and an IT division, and I probably would 
think that we would fold it into that department, if we did 
something like that.
    The Chairperson. Well, I guess that goes to my next 
question. I know you can't always believe what you read in the 
paper, but I did see a Politico article recently discussing the 
departure of Mr. Ryan Macias. And the article said that--well, 
actually, the title of it is ``EAC Losing Key Expert Reflects 
Crisis at Commission.'' And the article discussed Director 
Newby's leadership as part of a generally poor leadership and 
that, quote, ``they've drained so much technical expertise'' 
when Mr. Macias left.
    I understand that, shortly thereafter, you announced, Madam 
Chairwoman, that an individual, Jerome Lovato, had been 
appointed as the new testing and certification director. Can 
you describe the process by which Mr. Lovato was hired? Was 
there an open call for applications? Did he apply? How many 
other people applied?
    Ms. McCormick. The commissioners don't involve themselves 
in personnel matters, so----
    The Chairperson. So how did he get that appointment?
    Ms. McCormick [continuing]. That is a decision of the 
Executive Director. And, yes, the job was posted. They received 
many applications. I believe Mr. Macias was one of the 
applicants as well. Obviously, he did not get the job, and Mr. 
Lovato did get the job.
    The Chairperson. Okay. So it is my understanding--and 
correct me if I am incorrect--that this certification and 
testing program has absorbed several new responsibilities. I am 
wondering, will Mr. Lovato be conducting his work from his 
residence in Colorado, or is he moving here?
    Ms. McCormick. He is already an employee of the EAC, and he 
is going to be moving back and forth between Colorado and the 
EAC's headquarters in Silver Spring. He will be located next to 
one of our testing labs, very close to one of our testing 
labs----
    The Chairperson. In Colorado?
    Ms. McCormick. Yes, ma'am.
    The Chairperson. Is there a SCIF there?
    Ms. McCormick. I believe there is a SCIF that is available 
to him, yes.
    The Chairperson. I would love to know that, if you are not 
positive on this.
    Ms. McCormick. Well, he would probably use whatever the 
State of Colorado uses. He used to work----
    The Chairperson. Well, that is not good enough. We need to 
meet our standards.
    Ms. McCormick. Well, we don't have a SCIF at our 
headquarters either.
    The Chairperson. Really? That is disturbing.
    Ms. McCormick. In fact, Madam Chairperson, we just recently 
were given clearances, interim clearances, a couple of weeks 
ago, actually, not long ago. So we have been without--and it is 
at the Secret level as opposed to the Top Secret level.
    We have not had clearances for the two and a half years 
that we have been asking for them. We have finally been able to 
get those interim clearances, and hopefully they will become 
permanent clearances but it is an issue, and we are working on 
it with Homeland Security.
    The Chairperson. I am advised--and I don't know that this--
you will correct me if I have been advised incorrectly--that 
one of the individuals that has been hired to serve in 
certification currently serves as a director of certification 
at Dominion, which is a very large vendor of voting machines, 
and that after the announcement of this individual's hire, she 
actually was still meeting representing Dominion and will start 
at the EAC in the same month as leaving her post in Dominion.
    I am wondering--usually, there is a cooling--if we leave 
the Congress, there is a cooling-off period for a year. Is 
there concern about a cooling-off period, the appearance of a 
conflict of interest in this hire? Were those considerations in 
the mind of the agency when this person was hired? And what 
steps will you take to make sure that people don't favor one 
company or another because of their prior employment?
    Mr. Palmer. Sure, Madam Chairperson. There is an ethics--
ethics officer and the general counsel. And as employees either 
come to the EAC or leave the EAC, they are briefed on their 
ethical requirements on taking a taking a position at the EAC 
in testing and certification.
    And so the employee that you are speaking about, although 
we didn't hire her, she is a certification director for one of 
the vendors. She has worked with certification in the States 
and at the Federal level and brings a lot of assets to the 
Election Assistance Commission.
    The Chairperson. Well, I don't even know this person. I am 
not attacking her qualifications----
    Mr. Palmer. Yes.
    The Chairperson [continuing]. In any way. The point I am 
trying to make is, if you have somebody who is representing a 
company at the same time, you know--and then they are moving 
over to the agency that is regulating that company, it causes 
people to question, you know, the dispassionate nature of the 
agency.
    Mr. Palmer. Right. So there is an ethics office. And the 
individual won't be working with that vendor's testing program.
    The Chairperson. That is not the point. I mean, if she is 
testing other--well, I think I have made my point, and I can 
see that my time has also expired.
    And other Members have been very good about staying within 
their five minutes, so I will stop now and thank the 
commissioners for being here and note that the record will be 
open for 5 days. If Members have additional questions, they 
could submit them for the record. We would ask the Commission, 
if that should occur, to answer them promptly.
    The Chairperson. We do thank you for being here.
    And unless there are further matters before this Committee, 
we are adjourned, without objection with, thanks to each of 
you.
    [Whereupon, at 4:26 p.m., the Committee was adjourned.]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
  
    
  
    
</pre></body></html>
